<html>
<title> - LEARNING FROM IRAQ: A FINAL REPORT FROM THE SPECIAL INSPECTOR GENERAL FOR IRAQ RECONSTRUCTION</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                   LEARNING FROM IRAQ: A FINAL REPORT

       FROM THE SPECIAL INSPECTOR GENERAL FOR IRAQ RECONSTRUCTION
=======================================================================


                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON

                    THE MIDDLE EAST AND NORTH AFRICA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              JULY 9, 2013

                               __________

                           Serial No. 113-48

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/




                  U.S. GOVERNMENT PRINTING OFFICE
81-868                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


                                 ______


                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
TREY RADEL, Florida                  GRACE MENG, New York
DOUG COLLINS, Georgia                LOIS FRANKEL, Florida
MARK MEADOWS, North Carolina         TULSI GABBARD, Hawaii
TED S. YOHO, Florida                 JOAQUIN CASTRO, Texas
LUKE MESSER, Indiana

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

            Subcommittee on the Middle East and North Africa

                 ILEANA ROS-LEHTINEN, Florida, Chairman
STEVE CHABOT, Ohio                   THEODORE E. DEUTCH, Florida
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
ADAM KINZINGER, Illinois             BRIAN HIGGINS, New York
TOM COTTON, Arkansas                 DAVID CICILLINE, Rhode Island
RANDY K. WEBER SR., Texas            ALAN GRAYSON, Florida
RON DeSANTIS, Florida                JUAN VARGAS, California
TREY RADEL, Florida                  BRADLEY S. SCHNEIDER, Illinois
DOUG COLLINS, Georgia                JOSEPH P. KENNEDY III, 
MARK MEADOWS, North Carolina             Massachusetts
TED S. YOHO, Florida                 GRACE MENG, New York
LUKE MESSER, Indiana                 LOIS FRANKEL, Florida


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Stuart W. Bowen, Jr., Special Inspector General for 
  Iraq Reconstruction............................................     9
The Honorable John Herbst, director, Center for Complex 
  Operations, National Defense University (former American 
  Ambassador to Ukraine and Uzbekistan)..........................    18

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Stuart W. Bowen, Jr.: Prepared statement...........    12
The Honorable John Herbst: Prepared statement....................    21

                                APPENDIX

Hearing notice...................................................    50
Hearing minutes..................................................    51
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    53


                   LEARNING FROM IRAQ: A FINAL REPORT


                   FROM THE SPECIAL INSPECTOR GENERAL


                        FOR IRAQ RECONSTRUCTION

                              ----------                              


                         TUESDAY, JULY 9, 2013

                     House of Representatives,    

           Subcommittee on the Middle East and North Africa,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 10 o'clock 
a.m., in room 2172 Rayburn House Office Building, Hon. Ileana 
Ros-Lehtinen (chairman of the subcommittee) presiding.
    Ms. Ros-Lehtinen. The subcommittee will come to order.
    After recognizing myself and the ranking member, my good 
friend, Mr. Deutch, for 5 minutes each for our opening 
statements, I will then recognize members seeking recognition 
for 1 minute.
    We will then hear from our witnesses. Thank you, gentlemen, 
for being here, and without objection your written statements 
will be made a part of the record and members may have 5 days 
to insert statements and questions for the record, subject to 
the length limitation in the rules.
    I'd like to tell our witnesses that our parties are having 
their conferences right now and they're just getting out. So 
I'm sure that people will be filtering in. The chair now 
recognizes herself for 5 minutes.
    The stabilization and reconstruction operations in Iraq 
were, at the time, the largest such project of its kind that 
the United States Government ever undertook.
    But for all of the good intentions, it was a program 
replete with challenges, over-promises, setbacks and 
shortcomings.
    Of course, it had its share of accomplishments and 
successes as well. But at the end of the day, when we look back 
at our approach to the rebuilding of Iraq, we're left with an 
overall sense that there were too many errors, that fraud was 
widespread and that there was an unnecessary amount of waste of 
U.S. taxpayer dollars.
    Not long into the Iraq conflict, it became clear that our 
expectations for a limited post-conflict engagement gave way to 
the hard realities on the ground.
    Our mission would quickly have to shift from a short-term 
operation to a long-term protracted rebuilding effort that 
would require large amounts of human and financial capital that 
we had neither the planning nor the capability to conduct.
    The Special Inspector General for Iraq Reconstruction and 
his excellent team spent 9 years, countless hours, analyzing 
our efforts in Iraq in order to identify the challenges that we 
faced, what we did wrong, where we succeeded, and most 
importantly, what happened to the $60 billion in taxpayer money 
used to fund the rebuilding of Iraq.
    What was concluded painted a very grim picture of our 
ability to adequately plan, execute and oversee large-scale 
stability and reconstruction operations.
    According to the Inspector General, as much as $3 billion 
to $5 billion were wasted from the Iraq relief and 
reconstruction fund alone due to poor accountability, and as 
much as $8 billion overall.
    Many projects in Iraq ran over budget and behind schedule 
because of a lack of oversight and a lack of accountability, 
like the Basrah Children's Hospital. According to the Inspector 
General's reports, this hospital was supposed to cost $50 
million but ran to over $165 million and fell more than a year 
behind schedule.
    Another mismanaged project was the Fallujah wastewater 
treatment system. The IG found that the initial $30 million 
project tripled in cost to nearly $100 million and only reached 
one-third of the homes originally planned.
    These are but a few examples but they may prove valuable 
and the need for improved oversight going into the future.
    The lessons learned and the recommendations put forth in 
the Inspector General's final report--and I hope that everyone 
will have a chance to look at it--``Learning From Iraq: A Final 
Report from the Special Inspector General for Iraq 
Reconstruction,'' and all of the members have the book--serves 
as an important tool for the United States Government and for 
us in the United States Congress as we find ourselves facing a 
shift in the post-conflict role in Afghanistan.
    Our efforts in Afghanistan have already replaced those of 
Iraq as its nation's largest ever stabilization and 
reconstruction operation.
    Among the many challenges we faced in Iraq that the 
Inspector General highlights were a deteriorating security 
situation and inadequate oversight over the projects and 
programs being implemented.
    Yet for all of the challenges that we faced and the 
deficiencies that we encountered, nearly all of them lead back 
to the fact that we did not have a proper plan in place 
beforehand, which hampered our ability to execute and oversee 
stabilization and rebuilding operations properly.
    We have spent nearly $100 billion in Afghanistan under 
similar circumstances as Iraq, yet we still find ourselves 
making many of the same mistakes that we cannot afford to make 
as we prepare to withdraw our troops from Afghanistan at the 
end of 2014.
    It is likely that the United States will find itself in a 
similar position when examining future reconstruction efforts.
    In Haiti, a recent GAO report that I commissioned 
illustrated the lack of coordination and inadequate use of 
funds between the USAID and the State Department.
    In Syria, we must prepare for the possibility that similar 
efforts may be needed in a post-Assad era, as the conflict 
further cripples the country's infrastructure.
    In order to ensure that we maintain the know-how to 
properly plan, execute, and oversee any future similar 
operations, we must learn from the lessons of Iraq. We must 
centralize unity of command, advocate for better interagency 
coordination and use our funds more wisely, more efficiently 
and more effectively.
    And with that, I will turn to my ranking member, Mr. 
Deutch, for his opening statement.
    Mr. Deutch. Thank you. Thank you, Madam Chairman, for 
calling today's important hearing.
    It's been just over 10 years since the United States went 
into Iraq under a false pretense of thwarting weapons of mass 
destruction.
    Nearly 4,500 brave U.S. soldiers were killed. More than 
32,000 were wounded, including thousands with critical brain 
and spinal injuries and over 100,000 Iraqi civilians were 
killed.
    And now I think there is an unfortunate perception there 
was so much upheaval in the region over the past 2 years Iraq 
is no longer a priority. Yet at a cost of $2 trillion and the 
high human toll, we will feel the lasting effects of this war 
for many years.
    The U.S. has spent $60 billion on reconstruction efforts. 
It's an incredible amount of taxpayer dollars. But we did this 
to ensure lasting security, not just for the Iraqi people but 
for stability in the region and to try to create a reliable 
partner to help protect U.S. strategic interests.
    Even though our military operations have concluded, as 
we'll hear today there are still thousands of U.S. civilian 
personnel on the ground working to ensure that Iraq has the 
security and civil society institutions necessary to sustain a 
successful and stable state.
    The United States and Iraq are working to implement all 
eight tracks of the Strategic Framework Agreement. But in order 
to sustain long-term stability, the focus needs to be on more 
than just security. It must be on economic reforms, 
infrastructure, and rebuilding and strengthening higher 
education for a new generation of Iraqis.
    The IMF projects a GDP growth rate of 10 percent for 2013. 
Oil production is over 3 million barrels per day, helping to 
stabilize the markets as the U.S. and our partners can continue 
to find ways to shrink Iranian exports.
    For the first time in 2 years, there is dialogue between 
all of Iraq's political leaders. Although the run-up to April's 
provincial elections was marred with increased violence, the 
elections were deemed a success. However, sectarian violence 
has only increased with over 2,000 casualties between April and 
June.
    The greater test will come as the Parliament prepares for 
next year's national elections followed by Presidential 
elections. A peaceful transfer of power will be the true test 
of any democracy.
    In any operation of this scale, with this much money 
involved we owe it to the American people to conduct stringent 
oversight. For the past 9 years, the Office of the Special 
Inspector General for Iraq Reconstruction has audited and 
investigated the State and DoD reconstruction operations on the 
ground in Iraq.
    According to the 220 audits and 170 inspection reports 
conducted by--conducted by the Inspector General, Iraq 
reconstruction efforts have been plagued by waste, fraud and 
abuse.
    I applaud the IG's work in securing the successful 
conviction of 100 fraud cases and recovery of nearly $300 
million in misused assistance. But the amount wasted we know 
totals well into the billions.
    I am most interested to hear from the Inspector General as 
to how waste and fraud can be better controlled in future 
stabilization, how waste and fraud can be prevented in future 
stabilization and reconstruction operations.
    How do we learn from this? How do we use the lessons 
learned in Iraq to streamline bureaucracy while ensuring better 
interagency coordination on reconstruction programs?
    How do we maintain oversight, evaluate progress and enforce 
time lines of private security and civilian contractors, 
particularly when you have, at times, over 170,000 private 
contractors on the ground? A recent CNN report indicated that 
contractors have reaped a staggering $138 billion in Iraq--$138 
billion.
    And perhaps most importantly, I look forward to hearing how 
we can better achieve host-country buy-in. How do we operate in 
a situation if the U.S. is looked upon as occupiers by the 
people?
    How can we achieve this connection, not through bribery at 
every level of government but with the people who will be 
working in the water treatment plant or the mother who could 
have the chance to send her child to a university?
    As the Inspector General prepares to wind down his mandate 
later this year, the title of this hearing is fitting--
``Learning From Iraq''--because although I hope we're never 
involved in a contingency operation of this magnitude again, 
appropriate advanced strategic planning for any future efforts 
can mitigate the pitfalls of Iraq.
    The chair's focus on Afghanistan just several minutes ago, 
focusing on Afghanistan going forward, saving taxpayers' money, 
stopping fraud, stopping waste--these are all incredibly 
important topics that I look forward to hearing our witnesses 
speak about today.
    I look forward to what I hope will be a productive 
discussion on how we can apply the special Inspector General's 
best practices to any future operations.
    I appreciate your being here, both of you. And Madam 
Chairman, I yield back the balance of my time.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Deutch, for your 
opening statement.
    We will then now recognize members for a 1-minute opening 
statement. We will begin with Mr. Kinzinger. Thank you.
    Mr. Kinzinger. Well, thank you, Madam Chair, and gentlemen, 
thank you for serving your nation and being here. I appreciate 
it.
    Since I only have 1 minute, I want to just quickly say I'm 
a veteran of the Iraq War. I've been there multiple times over 
multiple years and in fact during that process I saw great 
improvement, especially after the surge happened, which 
probably many people still in Congress today oppose the surge. 
And it was amazing to me.
    And then as a Member of Congress, I was utterly shocked to 
find out that the administration decided that they were going 
to leave no residual troops at the end of--there was no 
negotiation of a further Status of Forces Agreement.
    We're talking about the lessons we're going to learn in 
Afghanistan. I think that's what's important, because I just 
read an article today in The New York Times that the U.S. is 
considering a faster pullout in Afghanistan.
    In fact, they're talking about a zero-troops option after 
2014, which was a number that was randomly pulled out of a 
political generator of saying, hey, politically, 2014 would be 
a good number.
    I'm very concerned that we repeat the mistakes in Iraq by 
pulling all troops out of Afghanistan and ending what the 
American people, young men and women, have fought so hard to 
achieve and that the Afghan people have fought so hard to 
achieve on the edge of an Afghanistan victory.
    So with that, I yield back. Thank you.
    Ms. Ros-Lehtinen. Thank you very much. Mr. Connolly is 
recognized.
    Mr. Connolly. Thank you, Madam Chairman, and thank you, Mr. 
Bowen, and your team for your hard work.
    You know, the finding that at least 15 percent of the 
reconstruction money--$8 billion--was wasted is troubling 
enough.
    But when one contemplates that that's probably the tip of 
the iceberg when you look at inefficiencies, inappropriate 
projects, projects that half work, projects that aren't going 
to have lasting value or can't be maintained, that number 
climbs rapidly.
    How can we be surprised that the United States finds so 
much waste based on a war that had nothing but false premises 
and, frankly, when the decision was made to go in was 
inadequate to begin with? And the chaos that resulted has cost 
us dearly.
    And so I hope we focus on the lessons learned and enshrine 
them so we don't repeat them.
    Thank you, Madam Chairman.
    Ms. Ros-Lehtinen. Thank you, Mr. Connolly. Dr. Yoho.
    Mr. Yoho. Thank you, Madam Chair.
    I'd just like to thank the chair and the ranking members 
for this hearing today. This hearing is important because it 
gives us the opportunity to learn lessons from our past 
endeavors in the Middle East region and hopefully not make the 
same ones again.
    And if insanity is doing the same thing over and over again 
expecting different results, let's hope by having hearings like 
this and talking to you, we can inject a little sanity to our 
foreign endeavors of the future.
    I look forward to the testimony of our witnesses and thank 
them for being here today. Thank you.
    Ms. Ros-Lehtinen. Thank you, Dr. Yoho.
    Mr. Cicilline.
    Mr. Cicilline. I thank the chairman and the ranking member 
for convening this hearing and I certainly want to thank the 
witnesses for being here.
    I think there has been considerable national debate about 
our engagement in the war in Iraq. But there should be no 
question that we have an important responsibility to ensure 
that we're good stewards, not only of the talent of this 
country but of the treasure.
    And this report raises some very alarming concerns. I 
think, as Mr. Connolly says, it ought not be a surprise based 
on the false premises that led us to this conflict.
    But I'm very anxious to hear from the witnesses and to hear 
your recommendations how we might reform this process to 
safeguard not only American lives but safeguard American 
treasure, and I thank you for being here. I yield back.
    Ms. Ros-Lehtinen. Thank you, Mr. Cicilline.
    Mr. Collins is recognized.
    Mr. Collins. Thank you, Madam Chair.
    I just, again, look forward to the testimony of our 
witnesses today, bringing forth as we've heard some of this in 
other committees and I'm looking forward to that.
    And, again, on what was said earlier, looking forward with 
a look to the past, I think, is appropriate. I think the one 
thing, though, just frankly, I'll just, as a point of order 
here and just a point, to say as we look forward in what 
happened, as someone who also has served, as Representative 
Kinzinger, in Iraq and been there, let's look at the report.
    Let's do what we're here to do on oversight and let's focus 
on the fact that real lives were lost, real lives were cost, 
and the things that--our taxpayer money.
    And this idea that we have a false premise for going there 
or other things needs to be left on the table and we need to 
focus on what we can learn and move ahead. And I yield back.
    Ms. Ros-Lehtinen. Thank you very much.
    Mr. Kennedy is recognized.
    Mr. Kennedy. Thank you, Madam Chair.
    Thank you very much for holding this hearing. Thank you to 
our witnesses for your service and your important work.
    I'm just going to add my voice to, I think, the voices and 
the thoughts that you've heard already this morning. In 
reviewing the report, I join my colleagues in being 
particularly troubled with some of the markups in the 
contracting that you pointed out.
    Just on one page, $900 for a switch that was valued at 
$7.05, a 12,000 percent markup. Another bid that was put in for 
$80 for a piece of PVC plumbing, that was also competitively 
bid on for $1.41, a markup of over 5,000 percent.
    What can we do? Clearly, the systems that were put in place 
were inadequate, to say the least.
    What can we do to make sure that our treasure is spent 
wisely and we are matching the commitment that our service 
members are making abroad?
    So I look forward to your thoughts and thank you for your 
service.
    Ms. Ros-Lehtinen. Thank you, Mr. Kennedy.
    Mr. Meadows is recognized.
    Mr. Meadows. Thank you, Madam Chairwoman, and thank you for 
being here to testify.
    Looking back, it's disturbing to note that we've got so 
much waste, fraud and abuse and yet, we still don't even really 
know the full extent of what happened there, and so that's 
troubling.
    The chairwoman has pointed out that, you know, we've seen 
some 15 to 20 percent of the $21 billion really go up in terms 
of wasted cost.
    A hospital--it cost three times what it should have. 
Seventy million dollars spent on anti-corruption efforts that 
really didn't show any results--$70 million.
    And so the money is gone, but what I'm hopeful to hear 
today from each one of you is what we can do in terms of 
lessons learned.
    I appreciate your work. I'm also intrigued to hear the 
efforts that you've gotten in terms of creating the U.S. Office 
of Contingency Operations and the implementation thereof.
    And so I look forward to working with you to find 
significant ways that we can reduce waste and fraud. And with 
that, I yield back, Madam Chairwoman.
    Ms. Ros-Lehtinen. Thank you, sir. Ms. Frankel of Florida?
    Ms. Frankel. Thank you, Madam Chair, and I thank the madam 
chair, the ranking member for your very articulate comments.
    I want to say, first of all, as the--I'm the mother of an 
Iraq veteran who served willingly and proudly. He returned 
safely.
    With that said, I think it cannot be said more that the war 
in Iraq was the wrong war at the wrong time. The real tragedy 
was the lives that were lost and mangled.
    I think it's very unfortunate that we even have to have 
this hearing today. I understand the reason for it. Madam 
Chair, I yield.
    Ms. Ros-Lehtinen. Thank you. Thank you very much.
    Mr. Cotton is recognized.
    Mr. Cotton. Thank you, Madam Chair, for having this 
hearing. There are many important lessons learned. I too was a 
veteran of Iraq. I served with the 101st Airborne and led 40 
infantrymen in Baghdad.
    One of the hallmarks of the Army is that you always engage 
in self-critique, not just rewarding yourself for the good 
things to sustain but exploring the failures that you need to 
improve in the future so you can always gain in your levels of 
performance.
    I look forward today to hearing more about what we can 
learn from Iraq, how we can apply those lessons to Afghanistan 
and how we can apply them inevitably in the future when we find 
ourselves in conflict again defending our country, defending 
our country's values and its interests, and defending our 
allies around the world.
    I hope that we don't, unfortunately, devolve into a look 
backward 10 years or more into what took us to war in Iraq, 
but, rather, what America can do in the future to make America 
and Americans safer and make the world more free. Thank you.
    Ms. Ros-Lehtinen. Thank you, sir.
    Mr. Vargas.
    Mr. Vargas. I'll get it right this time.
    Thank you very much, Madam Chair and Ranking Member. I 
appreciate very much the opportunity to speak but then also the 
hearing. Especially I want to thank the witnesses for being 
here.
    The numbers are staggering, especially when we take a look 
at sequestration and what we have to do in the sense of cuts in 
our own country.
    So I'm very anxious to hear your testimony, also to find 
out if we really are in a better position today than we were, 
you know, 10 years ago as we move forward.
    So, again, thank you very much for being here. And Madam 
Chair, I yield back.
    Ms. Ros-Lehtinen. Thank you, sir.
    Mr. DeSantis.
    Mr. DeSantis. Thank you, Madam Chairwoman, for holding this 
hearing. I want to thank the witnesses for coming. I just look 
forward to this.
    This is very important. There were a lot of good things we 
did in Iraq. When I was there, I saw a lot of very positive 
actions, a lot of bravery from some of our troops and we did 
expend a lot of blood and treasure there.
    And there were some good things and, obviously, there were 
some not so good things. So I really look forward to learning 
from your report and your testimony. So thank you.
    Ms. Ros-Lehtinen. Thank you, sir.
    Ms. Meng.
    Ms. Meng. Thank you, Madam Chair and Ranking Member. And 
thank you to our witnesses for your service to our country and 
for being here today.
    The Special Inspector General for Iraq Reconstruction 
Report provides valuable insights into the reconstruction 
process in Iraq.
    This is an important opportunity to evaluate our previous 
rebuilding efforts and consider how to improve our efficiency 
in any future stabilization efforts.
    Considering all the countries in conflict around the world, 
it is critical that we learn from our past mistakes and 
failures before involving ourselves in any other reconstruction 
efforts.
    I look forward to exploring how we can use the information 
contained in this report to develop more effective response 
systems and produce better results. Thank you.
    Ms. Ros-Lehtinen. Thank you, ma'am.
    Mr. Stockman is recognized.
    Mr. Stockman. Thank you for allowing me, Madam Chairman and 
Ranking Member, to speak and it's good seeing you again after 
all these years.
    We live in a hurricane area, hurricane zone. We would never 
vote for a hurricane. We would never want a hurricane. But when 
it happens, we want to be prepared. It's like Boy Scouts. We 
want to anticipate the worst.
    And now we never want to be in that situation again where 
we're in Iraq the way we are, but should it happen again I 
think it's critical we address how we can do it better and 
that's what we're here about today.
    I'm excited that you're addressing these issues, and I 
compliment you for doing all this under the--under the fire of 
military while you're trying to audit at the same time. I 
appreciate your sacrifice to our nation and I really look 
forward to seeing how we can save a dollar.
    I think I had the lowest dollar per vote. So this is an 
issue that we need to address, saving money for our taxpayers. 
And thank you, Madam Chairman, for opening up.
    Ms. Ros-Lehtinen. Thank you, sir.
    And I think that I speak for all the members when I say how 
blessed we are to have in our subcommittee, as you heard from 
our members, four veterans of the Iraq war. So for them, they 
have a real deep personal knowledge in what went on there.
    Thank you to Mr. Kinzinger, thank you, Mr. Collins, thank 
you, Mr. Cotton, and thank you, Mr. DeSantis, for your brave 
service.
    We thank you, Ms. Frankel, for your son, and I'm blessed 
that my stepson and daughter-in-law also served tours in Iraq. 
So thank you very much to all these brave heroes.
    And we are so pleased to welcome back to our committee Mr. 
Stuart Bowen, Jr., the Inspector General for Iraq 
Reconstruction. Mr. Bowen has served in this position since 
2004, overseeing more than $63 billion in U.S. funds.
    Over the past 9 years, he has made 34 trips to Iraq and his 
oversight work has produced financial benefits to the U.S. 
Government in excess of $1.8 billion and has yielded 87 
convictions for fraud and other crimes.
    Mr. Bowen is a military veteran, having served 4 years on 
active duty as an intelligence officer in the U.S. Air Force. 
Thank you for your service and welcome back to our 
subcommittee. Thank you, Stuart.
    Next, we welcome Ambassador John Herbst, the director of 
the Center for Complex Operations at the National Defense 
University. Prior to this, the Ambassador was the Ambassador to 
Ukraine and to Uzbekistan and retired in 2010 with the rank of 
Career Minister.
    He also served as the State Department's coordinator for 
reconstruction and stabilization, overseeing the creation of 
the Civilian Response Corps, an interagency group of 1,000 
civil servants trained and ready to deploy quickly to crises 
abroad.
    He is a two-time recipient of the Presidential 
Distinguished Service Award and has also received the State 
Department's Distinguished Honor Award and the Secretary of 
State's Career Achievement Award.
    Mr. Bowen is here with his daughter, Sophie, who is 
interning with the Veterans Affairs Committee, and the 
Ambassador is here with two interns. So we welcome them as 
well.
    And Mr. Chabot of Ohio has just come in, and I'm wondering 
if he has a 1-minute opening statement before we get to our 
witnesses.
    Mr. Chabot. I thank the chairwoman, but in the interest of 
time, I think I'll forego so that we can get to the witnesses.
    Ms. Ros-Lehtinen. Thank you so much.
    So we will begin with the Honorable Stuart Bowen.
    Thank you, sir.

   STATEMENT OF THE HONORABLE STUART W. BOWEN, JR., SPECIAL 
           INSPECTOR GENERAL FOR IRAQ RECONSTRUCTION

    Mr. Bowen. Thank you, Chairman Ros-Lehtinen, Ranking Member 
Deutch, members of the committee. It is indeed an honor to 
appear before you again to discuss our final lessons learned 
report, ``Learning From Iraq.'' And on a personal note, Madam 
Chairman, muchas gracias por todo su apoyo durante mi trabajo 
en SIGIR.
    Ms. Ros-Lehtinen. You're showing off.
    Mr. Bowen. And it's an honor also for me to be at the table 
with my friend, Ambassador John Herbst, who has truly the most 
applicable firsthand knowledge about the attempts to address 
the challenges that arose in Iraq, the attempts to reform our 
approach to reconstruction and, really, the story of how those 
attempts didn't meet the mark. So thank you, John, for joining 
us.
    We issued ``Learning From Iraq'' this March, the ninth 
lesson learned report, emblematic of my understanding of this 
mission from the start, and that is not just to generate 
audits--we did 220 of those, inspection reports, 170, and 
obtain convictions--we'll have over 100 by the time we're done 
in September--but to learn from what we were observing and to 
communicate it to operators so that it could be applied to 
improve how U.S. taxpayer dollars were being spent in Iraq.
    My mission, as I saw it, was to be the taxpayer's watch-
dog, but also to be a support to the mission and an advisor to 
the operators through these reports.
    This report provides seven chapters that lay out how that 
$60-plus billion was spent over the last 10 years but, 
importantly, concludes with seven lessons that are the focus of 
today's hearing.
    And I think that's what we should absorb from the entire 
Iraq experience--what we can learn from it, how it can be 
applied to reforming our system for stabilization and 
reconstruction operations so that when we next encounter such 
an operation--and we will, as most of the members have 
acknowledged--that we are structured to succeed, that we are 
prepared to win.
    And I have to say in answer to an issue raised already at 
the dais that we are not much better off today than we were 10 
years ago with regard to planning, executing, and overseeing 
stabilization and reconstruction operations.
    The seven lessons--here they are. First, begin rebuilding 
only after you've established adequate security. As someone 
said to me, why is that a lesson? Isn't that obvious?
    Well, it's a lesson because we didn't apply it effectively 
in Iraq. And thus, to put it in very simple terms, begin 
modestly. Begin with small projects and don't pursue large ones 
until the setting is stable.
    Second, ensure full host country engagement. Madam 
Chairman, you pointed this out in your opening statement as a 
key issue, underscoring the truth that we didn't consult enough 
with the Iraqis at the outset.
    For ``Learning From Iraq'' I did 44 interviews with 
leadership, 17 Iraqi leaders including Prime Minister Maliki, 
prime minister--previous Prime Ministers Jaafari and Allawi, 
and they all essentially focused on this, that we didn't 
consult with them about what they really needed and thus we 
built what we wanted.
    As Deputy Secretary of State Bill Burns told me, we came to 
Iraq and we tried to do it all and do it our own way, and he 
underscores and echoes the Iraqi point. Consultation is key.
    Third, establish uniform contracting, personnel and 
information management systems. All missing in Iraq. One of our 
first audits, which we issued almost exactly 9 years ago, found 
that the Coalition Provisional Authority couldn't account for 
who was there.
    They did not have a staffing system that was apropos, which 
was unsurprising since it was a start-up. And as I've called it 
in this report, it was an ``ad-hocracy'' and, indeed, a series 
of ad-hocracies that unfolded in Iraq.
    That's the wrong way to protect our national security 
interest. Improvisation is the wrong approach. We have to plan. 
That's key. And personnel planning is the first and foremost 
element, I think, because you've got to take the right people 
to the situation to succeed.
    But also IT. Our audits repeatedly found that there was no 
coherent information management system in place to track what 
we built.
    Indeed, we ultimately concluded, after a series of audits, 
only 70 percent of what we built was captured in any coherent 
information management system. Unacceptable, certainly.
    Contracting--the Congress has responded to the contracting 
challenges in Iraq. Indeed, the departments have. But have the 
departments responded in an integrated, effective fashion? And 
the answer still must be no.
    Also unacceptable, because if you want to talk about waste, 
a lot of waste occurred in poor contracting vehicle choice, 
poor quality assurance, poor contract management, ineffective 
oversight on the ground in the implementation of contracts.
    But the most important lesson that these issues can be 
resolved by establishing an entity that would ensure civil 
military integration of planning, execution and oversight for 
future stabilization and reconstruction operations, and H.R. 
2606, introduced by Mr. Stockman and Mr. Welch, would do that.
    It provides a structure. It addresses the contracting 
problem. It addresses the personnel problem. Indeed, it puts 
somebody in charge. Occam's razor: If no one's in charge, 
someone should be in charge. Accountability is key to success.
    The purpose of this hearing is oversight, to impose 
accountability. But looking forward, as the members have 
articulated, which we must do, as we learned from Iraq, we have 
to implement reforms that will effectuate a success in future 
stabilization and reconstruction operations.
    The U.S. Office for Contingency Operations would assure 
such success.
    Thank you, Madam Chairman, and members of the committee. I 
look forward to your questions.
    [The prepared statement of Mr. Bowen follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Ms. Ros-Lehtinen. Excellent. Thank you very much, Mr. 
Bowen.
    And, Ambassador, we'd love to hear from you as well. Just 
push that green button.

 STATEMENT OF THE HONORABLE JOHN HERBST, DIRECTOR, CENTER FOR 
    COMPLEX OPERATIONS, NATIONAL DEFENSE UNIVERSITY (FORMER 
         AMERICAN AMBASSADOR TO UKRAINE AND UZBEKISTAN)

    Mr. Herbst. Madam Chairman, Ranking Member Deutch, members 
of the----
    Ms. Ros-Lehtinen. A little bit closer to your----
    Mr. Herbst. Thank you for inviting me to appear today. It 
is a pleasure to appear alongside Stuart Bowen, my longtime 
colleague and the special Inspector General for Iraq.
    In particular, I am here to offer support for his 
suggestion to create the U.S. Office for Contingency 
Operations, USOCO.
    This discussion comes at an inopportune but a necessary 
moment. The country has been continuously at war since 
September 11th, 2001. Our military has been stretched by 
operations in Iraq and Afghanistan nearly to the breaking 
point. It needs time and resources for repair and rejuvenation.
    With our planned withdrawals from Afghanistan next year, 
the U.S. seems to be entering a new era of national security 
challenges. Chastened by the difficulties and cost of Iraq and 
Afghanistan, the American public has expressed in various polls 
its preference to avoid such interventions in the future.
    This clear preference to avoid large-scale interventions 
has been reinforced by the nation's budgetary woes. This has 
put serious pressure on the Federal budget and, of course, the 
Pentagon.
    In sum, there is not much support at this time for the U.S. 
to invest its reduced budget resources to ensure that we 
conduct stability operations in a competent way.
    This is a serious mistake because whether or not the United 
States is entering a new post-Afghanistan era in foreign 
policy, the international scene continues to be characterized 
by state dissolution and rampant instability.
    Al-Qaeda, holed up in the Taliban-led failed state of 
Afghanistan, launched the September 11th attacks. Today, the 
extremist group Al-Shabaab in Somalia is recruiting among 
Somali Americans in Minneapolis.
    The Center for Complex Operations recently released a new 
book, ``Convergence: Illicit Networks and National Security in 
the Age of Globalization,'' that highlights how various 
criminal groups are making common cause around the world to the 
detriment of law-abiding states and citizens.
    The Fund for International--the Fund for Peace and Foreign 
Policy issued the 2013 Failed State Index last month. It listed 
20 countries, with Somalia and the Democratic Republic of Congo 
leading the way, as in critical condition and 20 more in 
serious danger.
    In other words, this problem of ungoverned spaces will be 
with us for a generation or more, and there will be 
contingencies when American interests and the American people 
demand that we act.
    For example, Haiti is a near neighbor that has earned its 
ranking as the eighth most unstable country in the world. This 
poorly-governed land has prompted American interventions, both 
military and humanitarian, multiple times over the past 
century.
    Lately, these interventions have been driven by our desire 
both to alleviate human misery and to prevent a flood of 
Haitian refugees washing up on our shores.
    These are objectives that the American public can 
understand and support. I was in the State Department during 
our last intervention in Haiti following the January 2010 
earthquake. I recall vividly senior officials saying, ``We will 
do this intervention right so there will be no need for future 
interventions.''
    Well, as the chairwoman pointed out, we did not do it 
right. Our engagement achieved little. There will be an 
occasion in the future where we will have to engage in Haiti. 
So it is a very good thing if we are prepared.
    There is yet one more reason to develop capacity to conduct 
stabilization and reconstruction operations. While the American 
public may be fed up with interventions abroad, many in 
Congress and our broader political class are not.
    We saw this in the run-up to the intervention in Libya. 
President Obama was initially reluctant to engage, but under 
pressure from our allies in the U.K. and France and also from 
Congress we decided to go in.
    The President put clear limits on our role. We would only 
use air power and we put no soldiers on the ground. Yet this 
intervention was in support of a principle--the responsibility 
to protect helpless citizens from their own leadership--which 
if applied regularly would lead to our intervening again and 
again around the world.
    Right now, we are witnessing pressure to get involved in 
Syria. This pressure is ongoing despite the failure of our 
intervention in Libya: It was a failure because, while we 
removed Gadhafi and prevented carnage by Gadhafi on his 
citizens, this led to the destruction of democracy in Mali and 
a humanitarian tragedy there, with over 450,000 displaced 
people, both within the country and without.
    Yet pressure is growing for us to engage in Syria, despite 
the fact that the most effective members of the opposition are 
Salafi extremists. If we go into Syria, we better be prepared. 
We are not prepared at this moment.
    To properly run stabilization and reconstruction 
operations, the U.S. needs a significant civilian capacity to 
complement our world-class military. One way to explain our 
less than successful stability operations in Iraq and 
Afghanistan is to point out the obvious. These civ-mil 
operations were carried out by professionals on the military 
side but by amateurs on the civilian side.
    This is not to denigrate our State Department professionals 
or our USAID professionals. I was a career Foreign Service 
officer for 31 years and I can attest to you that our Foreign 
Service officers are courageous, intelligent and capable. The 
same is true with our USAID colleagues.
    But the point is that neither the State Department nor 
USAID hires or trains people in large numbers for stability 
operations. This was evident during our engagements in Iraq and 
Afghanistan.
    Yes, we deployed hundreds and even thousands of USAID and 
State Department officers, but we eventually staffed it with 
tens of thousands of contractors--people who served one tour 
and then left.
    Their experience vanished with them. Contrast that with the 
military personnel who served three or more tours in Iraq and 
Afghanistan.
    The problem on the civilian side has been understood for 
some time. It led President Clinton to issue Presidential 
Security Directive 56 and President Bush to issue National 
Security Directive 44.
    The purpose of that second directive was to create a rapid 
reaction interagency force--a civilian response corps--that 
could be used for both conflict prevention and conflict 
response. It was under the control of my old office at the 
State Department, the Office of the Coordinator for 
Reconstruction and Stabilization.
    While SCRS was beginning to build the Civilian Response 
Corps, the Obama administration came in. Under the Quadrennial 
Diplomacy and Development Review under Secretary Clinton, the 
department took a good step of making my old office a bureau 
and renaming it the Conflict and Stability Operations Bureau, 
raising its profile at State.
    But, unfortunately, for budgetary and perhaps other 
reasons, they decided to take apart the Civilian Response 
Corps. This corps, which once numbered over 1,000, now is 
reduced to a handful.
    In other words, if we go into a major stability operation 
today we will have to staff the civilian side of this 
contingency operation with contractors.
    We are no farther prepared to staff this with professionals 
of the U.S. Government than we were 10 years ago. That's the 
problem.
    Experience has shown that we need a corps of dedicated 
civilian professionals in order to conduct these stabilization 
operations well. This is where USOCO comes in. As we draw down 
in Afghanistan, the military is putting together smaller 
numbers for stability operations but they have the ability to 
ramp up.
    We do not have something equivalent on the civilian side. 
We have not had that since USAID was taken apart after the 
Vietnam War. USOCO is a first step toward reestablishing the 
civilian capacity. The initial cost of this proposal is 
insignificant--$25 million.
    It can be used to put together a staff of 125 professionals 
who would begin to organize the civilian side for contingency 
operations. It would provide the first stability operation 
professionals ready to respond to emergencies abroad.
    This would put our civilian side, if this proposal is 
enacted, in the same situation as our military, which has 
ramped down the numbers but was able to ramp up in an emergency 
and which has retained the know-how to conduct civ-mil 
operations.
    We have created the world's greatest military, but without 
a professional civilian counterpart, this military will not 
conduct stabilization operations effectively. A small 
investment today will help us avoid failure tomorrow.
    Thank you. I apologize for going over my time.
    [The prepared statement of Mr. Herbst follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Ms. Ros-Lehtinen. Thank you very much, Mr. Ambassador. 
Thank you for excellent testimony, and we will begin the 
questioning part. I will recognize myself for 5 minutes.
    Mr. Bowen, we have spent nearly $100 billion in Afghanistan 
already. However, we continue to make some of the same mistakes 
as we've done in Iraq.
    One of the lessons learned from your testimony that you 
pointed out is that we should begin rebuilding only after 
establishing sufficient security.
    Given the fact, as Mr. Kinzinger pointed out, that we have 
seen press reports this morning that the President is 
considering leaving no troops in Afghanistan after our 
withdrawal in 2014, how will this security vacuum impact our 
reconstruction efforts in Afghanistan, based on the lessons 
learned in Iraq?
    Mr. Bowen. I think my interview with Secretary Panetta on 
this point shed some light on the decision making with regard 
to the withdrawal from Iraq vis-a-vis what is occurring in 
Afghanistan.
    And Secretary Panetta said to me that the inability to 
negotiate a basis for a continuing U.S. military presence in 
the post-2011 Strategic Framework Agreement left the United 
States without important leverage in Iraq. This weakened 
American capacity to push for greater change within the 
Government of Iraq.
    That's a lesson, I would say, from the Iraq experience, 
from Secretary Panetta's perspective, one that should be 
listened carefully to. And thus, as we look forward to 
Afghanistan, that lesson ought to be kept in mind because the 
truth is the last quarter in Iraq has been the most devastating 
quarter since the summer of 2008.
    A lot of causes for that--certainly, what's going on in 
Syria. But the rule of law certainly is not under control in 
Iraq at this moment.
    Ms. Ros-Lehtinen. And speaking of Syria, due to that 
ongoing bloody conflict, the infrastructure needs in Syria will 
continue to increase and the U.S. might be asked to assist in 
Syria's reconstruction efforts in the near future.
    Looking beyond Afghanistan, what would you suggest, either 
one of you, our plan should be for a post-Assad Syria within 
the parameters of reconstruction efforts and how much cost 
would be involved?
    Can you envision what those could be and what mistakes 
might be repeated there?
    Mr. Bowen. At a minimum, we should be actively planning for 
participating in a multilateral stabilization reconstruction 
operation in a post-Assad Syria. We should be planning now. We 
should have been planning for a while.
    Indeed, the U.N., under former Syrian Minister Dhari, is 
doing that now and he's publicly expressed some frustration at 
the lack of multilateral engagement on the point.
    It's impossible to project the cost but we do know the 
devastation in Syria is massive and, thus, the stabilization 
and rebuilding of the country will take time.
    But what should be clearly on the table and would be if 
there was a USOCO in existence now is identifying the 
contractors, the personnel, the IT system, the oversight, how 
money would be managed--the controls, just to put a general 
rubric over it, to ensure that we avert fraud, waste and abuse 
of the kind that we saw in Iraq and that we've seen in 
Afghanistan.
    Ms. Ros-Lehtinen. Mr. Ambassador.
    Mr. Herbst. I agree with Stuart that we should be planning 
now. We should have begun planning long ago for a possible 
engagement in Syria after the Assad regime falls.
    Whether or not we actually do that depends on many things, 
for example, whether the government that appears after Assad is 
one that's friendly to us. But we don't know and we should be 
planning now for that contingency.
    I believe there has been some planning being done by the 
Office of Conflict Stabilization and Operations at the State 
Department for this.
    But I don't know how comprehensive it has been and 
certainly, as Stuart said, it needs to be done in conjunction 
with what's being done by the U.N.
    Ms. Ros-Lehtinen. If I could interrupt you, you talk about 
the Bureau of Conflict and Stabilization Operations was 
established in November 2011. And this bureau was preceded by 
the organization that you led, the Office of Coordination for 
Reconstruction and Stabilization.
    And even though the bureau concentrates more on small 
crises, do you believe that we should increase the capacity of 
the existing bureau within the State Department or establish a 
new center, which you proposed, called the U.S. Office for 
Contingency Operations? And wouldn't there be more redundancy 
and duplicative efforts between those two entities?
    Mr. Herbst. I think there is the possibility for 
duplication if USOCO is established. But here's how I look at 
this. The core of a successful stabilization operation on the 
civilian side consists of, first, planning, secondly, an 
integrated core of government professionals.
    And what you have in CSO right now is, I think, an able 
planning capacity and a small competent staff. But there's no 
larger interagency core of professionals to do this work 
properly.
    A conscious decision was taken to reduce that core. 
Conceivably, it could be redone in that office or conceivably 
be done with Stuart's proposal for USOCO. There does not seem 
to be an interest right now in the State Department for doing 
that.
    And even when I was in charge of the SCRS office at State, 
while we were building this there did not seem to be a 
readiness on the part of the rest of the building to use it. It 
was something of a foreign entity in the State Department.
    Ms. Ros-Lehtinen. Thank you very much, sir. Thank you for 
good answers.
    Mr. Deutch is recognized for his questioning period.
    Mr. Deutch. Thank you, Madam Chairman.
    Inspector General Bowen, you--just two of the points that 
you flag I'd like to explore. You say that--and you spoke today 
about facilitating greater host country buy-in. I'd like you to 
speak to why that didn't happen in Iraq.
    And then you also recommend ensuring security before 
rebuilding begins. And I wonder--while that's important, I 
wonder the extent to which we can actually do that and whether 
there's concern that it actually prolongs the conflict--
prolongs the conflict and slows the reconstruction of 
infrastructure, state institutions, the other things that need 
to happen. If you could speak to both of those.
    And then, Ambassador Herbst, as it relates to Syria, if 
that's the sort of thing that USOCO would do and that's the 
view that would be taken here, how is it--when is it ever 
relevant? When is the security situation and who deems the 
security situation addressed well enough to be able to come in 
and do these other things? Inspector General.
    Mr. Bowen. Thank you, Mr. Deutch.
    First, on the consultation point, part of it was the shift 
from liberate and leave--which was the pre-war plan--to occupy 
and rebuild--which became the policy just over 10 years ago 
now. A significant shift from spending $2 billion to $20 
billion in the blink of an eye, and then $60 billion over 10 
years.
    The reality was--is we were planning on leaving by the end 
of September 2003 and, thus, there was no commitment to 
consultation with that planned short stay.
    When we shifted to a significant infrastructure-based 
rebuilding program, the plan sort of evolved within and among 
the U.S. contractors that were identified and was developed by 
the Coalition Provisional Authority, and it did not engage with 
the Iraqis enough. That's their first-person testimony to me 
about what happened back then.
    But more importantly, it's something that wasn't thought of 
beforehand--the need to consult and the commitment to it, and 
the deference to host country interest capacity and absorptive 
capacity, in particular--what can they do, what can they 
sustain. On the security front, the key is ensuring sufficient 
security, not absolute security.
    So it's a proportional metric. The less secure in the 
environment, the smaller the project. The more secure the 
environment, the more substantial the project you can pursue.
    Mr. Deutch. Right. So just to follow up on that, in Iraq 
you have the assessments being done both about security and 
about engagement.
    In the absence of USOCO, those assessments were being done 
by our Ambassador and those assessments were being done by the 
generals on the ground.
    So how do they--where are they on this proposal? Do they 
feel that they would have benefited? Did the generals--any of 
the generals or Ambassadors who served in Iraq feel that they 
would have benefited by having this or----
    Mr. Bowen. Yes sir, Mr. Deutch. Ambassador Crocker says 
this would have enabled him to operate more effectively and he 
supports the idea of creating USOCO.
    Mr. Deutch. And when the--when the U.S. is operating 
overseas--and I guess we can broaden this, Ambassador, to Syria 
too--the Ambassador in Iraq--as we've talked about and when the 
U.S. operates elsewhere, it's the Ambassador who heads the 
civilian efforts in the country and the commanding general then 
heads the defense operations.
    Where does--I understand what Ambassador Crocker said. 
Where does--where would USOCO fit into the chain of command? Is 
it on par with State and DoD? Is it--how does it fit?
    Mr. Bowen. USOCO's mission is very discrete and well-
defined, and its clarity will provide certainty to both the 
agencies and the contractors.
    It would be somewhat like FEMA in that the President would 
declare when a stabilization reconstruction operation begins. 
USOCO's jurisdiction then is effectuated and its mission is to 
oversee the relief and reconstruction activity in the affected 
country.
    And then upon completion of that mission as identified by 
the President he would declare it over. Its reporting chain 
would be like mine, reporting to the secretary of defense and 
secretary of state and then the national security adviser.
    Mr. Deutch. And I only have a few seconds left. Ambassador, 
when would we ever hit that point in Syria? And in Afghanistan, 
at what point would that designation have ever been made?
    Mr. Herbst. In Syria, we would hit it once we decide the 
situation is appropriate for us to go in and that point is when 
you have a government in Damascus or an emerging government in 
Damascus which we know we can work with and when conditions on 
the ground are sufficient to permit us to go in.
    To make that--to make that call, you need to have very 
experienced professionals on the ground, certainly, on the 
border with Syria and hopefully within Syria as well to offer 
the expert political advice that our leaders need in order to 
make that decision.
    And that's why you need to have a core of professionals 
devoted precisely to this type of problem. This type of problem 
is widespread around the world.
    Mr. Deutch. And without--I'm sorry, my last question, Madam 
Chairman. So without this core of professionals, we're not able 
to make the decision about when there's a government that we 
can work with?
    And shouldn't there be--shouldn't there be much more that 
goes into the discussion of the analysis of when to get 
involved or do we always wait until there's a government that 
we can work with?
    Mr. Herbst. We should be involved as soon as we see a 
crisis brewing and we should put our intelligence assets and 
our best professionals on the ground to develop a sense as to 
what's happening.
    Your question--there has been some skepticism when you 
said, well, do we need these professionals in order to make 
these decisions.
    My sense is, looking at our experience in Iraq and 
Afghanistan, that it would have been very helpful if we had 
this type of professional analysis before our political leaders 
decided to go in in this very serious way.
    The decisions to go in in both cases were full of 
suppositions that proved to be false. It was mentioned by many 
members of the committee before we had a chance to testify.
    Ms. Ros-Lehtinen. Thank you very much.
    Thank you, Mr. Deutch. One of our Iraq vets, Mr. Kinzinger, 
is recognized.
    Mr. Kinzinger. Thank you, Madam Chair, and, again, 
gentlemen, thank you for being here, as I mentioned in my 
opening statement.
    You know, I think the big thing we want to know is not 
should we be involved in other parts of the world but, of 
course, how do we do it better.
    One of the concerns I have is in this time in Egypt where 
you have this turmoil that we're going to rush to the exits to 
get rid of aid and to walk away from that situation. I think 
it's important that in Egypt the United States stay engaged 
with aid, with foreign aid as they go through this time of 
instability.
    And I think it's, you know, also important to recognize 
that in Iraq, I think there were mistakes made in the post-war.
    Number one, I think we should have gone in with far more 
troops. We should have had a plan the point Saddam's statue 
fell.
    We should have had a plan for law enforcement and, frankly, 
we should have gotten on TV and said if you work for the Iraqi 
Government come to work tomorrow because you're going to 
continue to have a job. And I think that, in the long run, cost 
us probably many years of fighting.
    And so as we look at this, something I want to explore is 
what's the difference between what happened in Germany and 
Japan post-World War II and what we saw in Iraq.
    Is it reasonable to expect that any kind of development aid 
program can succeed in a highly unstable security environment? 
I'll start with you, Mr. Bowen.
    Mr. Bowen. Well, that's a core lesson from Iraq and 
Afghanistan that you must have sufficient security before 
engaging in substantial rebuilding, relief and reconstruction 
activity, development and aid, and that cost us billions of 
dollars and too many lives.
    Indeed, we issued a report last summer that found that 719 
lives were lost while those individuals were engaged in 
reconstruction-related activity. Better planning, better 
capacity, better integration among the agencies would avert the 
kind of fraud, waste and abuse we've seen in Iraq.
    It would ensure that better execution and would implement 
effective oversight so that the loss in blood and treasure that 
we've seen in Iraq, that we've seen in Afghanistan, would be 
averted in Syria in whatever future stabilization and 
reconstruction operation we engage in.
    Mr. Kinzinger. Thank you. Mr. Herbst.
    Mr. Herbst. Our occupations in Germany and Japan succeeded 
because the German Government and Japanese Government and 
people accepted the legitimacy of our presence. In Iraq, that 
was always a question and----
    Mr. Kinzinger. Let me just ask you--not to interrupt but do 
you believe initially when basically the Saddam statue fell did 
we have the legitimacy at that point and was it a matter of we 
didn't enforce laws, we didn't--you know, we basically did the 
de-Ba'athification? Was that the problem or do you think that 
was in question from the beginning?
    Mr. Herbst. Given the complexities of our relationship with 
the Arab world, our legitimacy was in question even as Saddam's 
statue came down. Still I believe we had a chance if we had 
done it smart that we could have established some legitimacy.
    And if we had done it smart we would have--we would have 
established law and order, which we had the capacity to do. As 
you stated, we would have welcomed those who had been part of 
the Saddam government to continue working in the government. We 
would not have disbanded the military the way we had.
    There were many fundamental mistakes that we made, mistakes 
because we were not sufficiently sensitive to the culture of 
the location. But even had we done everything right, Iraq would 
have been much more difficult than Germany and Japan.
    Let me give you one example from Japan which helped us get 
it right there. The U.S. made the critical decision not to 
remove the emperor of Japan, and the emperor of Japan said to 
the Japanese people, ``Cooperate with these Americans.'' We had 
no such wisdom in Iraq.
    Mr. Kinzinger. You're suggesting we should have left Saddam 
Hussein as President?
    Mr. Herbst. No. But we took out Tojo in Japan. The emperor 
was a very different kettle of fish.
    Mr. Kinzinger. Understood. I understand what you're saying. 
And I thank you for that question. I think as, again, as we 
look forward, I mean, Iraq, they're very important lessons 
learned.
    We're naive if we think America's never going to have to be 
in this situation again in the next 50 or 100 years, and so I 
thank you for your hard work.
    Looking forward at where we're at in Afghanistan, again, as 
I mentioned in my opening statement, my big concern is the 
number 2014 for the year to withdraw from Afghanistan was 
pulled out of a hat, and it was pulled out for political 
reasons.
    The President wanted to put a date certain for withdrawal. 
I'm not going to necessarily argue. I disagree.
    But one of my questions, though, and one of my concerns is 
when you look at Afghanistan today, I think it's something like 
60 percent of the people in Afghanistan are under the age of 20 
or some amazingly young demographic.
    You have the Afghan civil society. People are waking up in 
Afghanistan. The Afghanistan military now basically controls 
its entire country. It is standing against resurgent Taliban.
    This is a war that has to continue but we're on the eve of 
not a victory for America--I think it would be a victory for 
America--but a victory for the people of Afghanistan, which in 
50 or 100 years when we look back at the United States, you 
know, when our grandkids or whatever are reading history books, 
they're going to look at this finite amount of time when there 
was instability in the Middle East, instability everywhere, and 
say what did America do with its position of power.
    And it's going to lead to a world of chaos, a world of a 
Chinese or a Russian leadership, or a world where America 
continues to be that shining city on a hill. And so I thank you 
all for your testimony and I yield back.
    Ms. Ros-Lehtinen. Thank you for your service. Thank you.
    Mr. Connolly of Virginia is recognized.
    Mr. Connolly. Thank you so much, and I would say to my 
friend from Illinois I appreciate his fingering some of the 
early mistakes that were proved catastrophic.
    And I would argue part of the problem was our own command 
structure because we, frankly, infused Ambassador Bremer with 
way too much power to make unilateral decisions that actually 
undercut negotiations the military and State Department were 
having to try to keep the country together immediately post-
invasion.
    And someday, Mr. Kinzinger, I'd enjoy talking to you about 
that. I commend a book by Thomas Ricks called ``Fiasco,'' which 
documents this in agonizing and painful detail.
    Mr. Bowen, you and I travelled to Iraq together on one of 
your many peregrinations. Two things, and we've got to be 
concise if we can do it, but two things that came up in that 
visit that stay with me and you and I have talked about since, 
one is CERP--the idea that the military was going to become an 
aid distribution entity.
    It's one thing to have some small sums to fix a problem 
here to try to bolster the role of rebuilding communities, not 
just being seen as occupiers and invaders.
    But this program ballooned with very little scrutiny and I 
wonder as part of your final report if you'd talk about that.
    And then the second thing is I remember anecdotally when we 
were travelling in a limited way around Baghdad, if you recall 
this, there was the story about the water power plant or water 
purification plant we rebuilt or we built.
    The problem was that we gave no thought to the capacity of 
piping in Baghdad. And so we had this brand spanking shiny new 
thing we could point to and we cut a ribbon and we turned on 
the switch and, you know, tens of thousands of Baghdad water 
pipes burst because they weren't retrofitted to handle this new 
capacity.
    And that's what I was saying in terms of over and above the 
15 percent of absolute waste, there were examples like that 
where we just didn't get it right. Now, maybe it was in haste. 
Maybe it was because we didn't have the right people on the 
project.
    Maybe it had to do with the coordination you're talking 
about. But I wonder if you can just talk about that aspect of 
it too, not just waste.
    Mr. Bowen. Yes. Thank you, Mr. Connolly.
    Yes, on CERP, clearly, as our audits demonstrated, it 
extended far beyond its initial concept as quick hit urgent 
humanitarian need projects.
    That's a good idea. That's a weapon in the arsenal of the 
local commander to help address hearts and minds issues at the 
village level.
    What happened instead was we had projects like the Baghdad 
Enterprise Zone, which ballooned up to $38 million, including 
the painting of a mural on a blast wall for $1 million. That 
entire project certainly----
    Mr. Connolly. Well, that's great work if you can get it.
    Mr. Bowen. Well, it was--I would deem it waste. But more 
importantly it didn't advance our national security interests 
locally and instead hindered them.
    Ultimately the Congress responded by capping CERP projects 
at $1 million unless the secretary of defense approved, and 
that never happened.
    But the Congress shouldn't be CERP's program office. That 
should be done at the Pentagon, and thus in future operations 
there should be a program office that carefully defines how it 
should be implemented and ensures training is done. That's what 
was also missing.
    On the Nasiriyah water treatment system, yes, you're right. 
It was the largest single infrastructure project we did in 
Iraq, and it, as we documented in our evaluation of it, was 
only operating at 20 percent after turnover.
    It is an example of what happens when you don't carefully 
consult and effectively oversee and ensure proper execution at 
the local level. It was a project beyond their means and, as 
you pointed out in your opening statement, there's so much 
waste at the sustainment point--in other words, what the Iraqis 
cannot sustain.
    The Nasiriyah system is one example of why it's impossible 
that the $8 billion number is a conservative number when it 
comes to waste.
    By contrast, in Erbil, the parallel water treatment 
project--the fourth largest project we did in Iraq--is a 
smashing success. It's providing fresh water to the people of 
the capital city of Kurdistan now.
    And why? Because the Kurds committed to it and they did 
have a sustainment plan that they executed. Sustainment is a 
huge issue in any future operation.
    Mr. Connolly. Thank you, Madam Chair.
    Ms. Ros-Lehtinen. Thank you, Mr. Connolly.
    Dr. Yoho.
    Mr. Yoho. Thank you, Madam Chair.
    Gentlemen, I appreciate your testimony. You know, we're 
talking about fraud, waste and abuse and we need to have 
transparency and oversight and all that. And I hear that in 
every meeting I come to but we never find that person that's 
held accountable at the top.
    And, you know, with the money that we looked at spending in 
Iraq, $60 billion I think is what I have, and then close to 
$100 billion in Afghanistan, without the oversight, it just 
seems when we go back to our district--in fact, that's one of 
the reasons I'm here--is the American people are tired of that. 
We've got to change our foreign policy and what we do.
    And the reason it worked in Japan and Germany is we beat 
the stink out of them and they surrendered. Nobody surrendered 
here, and so for us to go into a stable--a non-stable 
government and try to rebuild, it's almost insanity, I think, 
or ludicrous that we do that without that clear defined goal.
    And now we're looking at Syria to do it again. I want to 
ask specifically what do you see as the role of the American 
Government in the Middle East?
    Is there a different way that we can approach the Middle 
East to bring stability to that area instead of going in there 
and bombing, people die and then we have to look at rebuilding 
with the waste, fraud and abuse? That's the one question.
    The other one is, if you could take us through a scenario 
of how money is given to this agency and how it's tracked so 
that we don't get into this again. And I--you know, 
unfortunately, I think we'll be involved somewhere in the 
future and I'd rather not see that.
    I'd hate to see our young men and women go overseas. They 
need to stay here and build America strong. So I look forward 
to hearing you.
    Mr. Herbst. You ask a big question when you ask if we can 
provide stability in the Middle East. I think it's safe to say 
that it is beyond our means to provide stability in each and 
every country in the Middle East.
    Mr. Yoho. I agree.
    Mr. Herbst. And we will bankrupt ourselves if we try. We 
can offer an environment and we can, by prudent relations, 
promote stability and that should be part of our goals. And we 
can also, in specific countries at specific times, make a 
significant difference.
    But we have to be very careful before we go in. We have to 
have excellent intelligence. We have to have goals that are 
sufficiently limited that we can achieve them and goals that 
are consistent with the culture, political and social, of the 
country where we engage.
    And that means we have to look carefully every time before 
we decide to intervene. And for that, we need to have, again, a 
serious corps of professionals and leaders with wisdom and 
humility.
    Mr. Yoho. Thank you.
    Mr. Bowen. And Dr. Yoho, with regard to reducing fraud, 
waste and abuse in future operations, this is what USOCO would 
do.
    It would reduce the cost of preparing and executing and 
overseeing such operations by ensuring that there was effective 
planning that afforded our national command authorities 
options. That's what USOCO would do.
    And more importantly, it would not rely on coordination on 
the ground after the operation begins, which is what occurred 
in Iraq and which is what occurred in Afghanistan and which 
didn't work.
    That coordination must move to interagency integration so 
that these--there is a civ-mil capacity that exists before the 
operation begins and that's done the work ahead of time to 
ensure that there are controls in place so that the projects 
and programs succeed and that fraud, waste and abuse is 
reduced.
    Mr. Yoho. Okay, because I was reading in here about the 
Army Corps of Engineers. They did a program where they were 
burying the pipelines and it was billions of dollars. And you 
were saying that we have to rely on better experts and things 
like that. I mean, how do you get better than the United States 
of America?
    You know, it's just not acceptable that we're spending this 
money there and then we go back to our taxpayers and say, hey, 
guess what, you got to send more money in and we're borrowing 
43 cents on every dollar to send over here. And it's just--if 
we don't have the experts now and they go over there, what are 
we doing?
    Mr. Bowen. Well, accountability is the key.
    Mr. Yoho. All right, accountability. Who's----
    Mr. Bowen. Imposing accountability.
    Mr. Yoho. Who's held accountable?
    Mr. Bowen. And that's the problem. There's no one in charge 
now. There was no in charge in Iraq specifically for the 
rebuilding program.
    And when the Commission on Wartime Contracting held its 
hearing on Afghanistan and called State, Defense and AID to the 
table and said, who's in charge of the rebuilding program, they 
couldn't provide an answer. That's what USOCO would do.
    You know, Mike Brown was there to fire when FEMA failed. 
You know, there's no one there to fire now when a stabilization 
and reconstruction operation doesn't go well because it's not 
centralized, it's not coordinated, it's not--there's no one 
identified with accountability for the operation. USOCO would 
solve that problem.
    Mr. Yoho. I yield back. Thank you, ma'am.
    Ms. Ros-Lehtinen. Thank you, Dr. Yoho.
    Mr. Cicilline is recognized.
    Mr. Cicilline. Thank you, Madam Chair. Thank you again to 
the witnesses.
    You know, the contrast of the quality and service of our 
brave men and women in uniform to--compared to the conduct 
described in this report is really stark, and very, very 
disturbing. And so I have--I want to ask, really, three 
separate questions.
    First is what role does the pervasive corruption in Iraq 
play in this reconstruction effort? You note in the report at 
Page 104 that the United States invested over $67 million since 
September--as of September 2012 in anti-corruption efforts.
    And despite this support for the fight against corruption, 
apparently little changed between 2003 and 2012 and that Iraq 
remains consistently one of the most corrupt countries in the 
world.
    I remember from my visit to Iraq hearing from a constituent 
who was part of the rule of law working group about the 
challenges.
    So I'd like to hear from you about what--whether or not 
that sort of pervasive local corruption impacts the 
reconstruction efforts, obviously, and our accountability that 
we're seeking.
    Second, I'd like to hear from you about the police 
development program. I actually saw that while I was there. 
Apparently, it wasted over $200 million to train Iraqi police 
that both Baghdad didn't need or want. How did that happen? How 
does a program that no one wants and that's that ineffective 
occur?
    And finally, how do you conclude that this new agency would 
somehow provide the kind of streamlining and oversight that we 
have a right to expect? I think the American people see what 
this report reveals and they've become enraged at the kind of 
waste when we see crumbling infrastructure in cities and towns 
all across America and we're told we don't have the resources 
to rebuild our own country, and we see the colossal waste that 
occurred in the reconstruction of Iraq.
    And it is, I think, is properly a source of great rage from 
the American people. So I'd like you to address those three 
issues, please.
    Mr. Bowen. Thank you, Mr. Cicilline. The corruption issue 
in Iraq continues to daunt the country, to limit its capacity 
to grow and to hold it back from making progress out of the 
situation in which it's currently mired.
    And as Dr. Basit, who's the head of the Board of Supreme 
Audit, their chief oversight entity, told me when I interviewed 
him last year, corruption has become an institution in Iraq and 
it takes the form of money laundering-up to $20 billion to $30 
billion lost annually to money laundering in Iraq, by some 
estimates, by his estimate.
    And that drains the economy of its resources and keeps the 
majority of the population in poverty-stricken circumstances.
    The police development program failed to succeed because of 
the lack of consultation with the minister of interior. When we 
did our audit of it, we met with Minister al-Assadi and he said 
to us that it was shaped and formatted in a way that didn't 
really meet his needs.
    Yet it was far down the road at that point and upon 
issuance of the audit it began to roll back and eventually was 
concluded earlier this year because of the lack of buy-in. 
Curiously, you know, this late into the program, still there 
was a consultation problem.
    USOCO would address the fraud, waste and abuse issues, the 
planning issues, the execution issues, by ensuring 
accountability and transparency throughout the process. But 
most importantly, it would promote integration.
    These are civ-mil operations. If you accept that and you 
accept the fact that our current system is not promoting or 
advancing toward greater civ-mil capacity, then I think reform 
is necessary.
    There is no other proposal on the table. There is no other 
office in place within the executive branch now that is 
advancing that interest.
    And that interest ultimately is tied to our national 
security architecture and protecting our interest in the 
region. Not learning from Iraq, not implementing this kind of 
reform will leave us worse off.
    Mr. Cicilline. Just a follow-up question. Your report 
reveals that--or references an audit that was done in 2012 that 
concluded that roughly $1 billion was transferred out of Iraq 
each week via currency auctions conducted by the Central Bank 
and up to $800 million was laundered money transferred 
illegally under false pretenses.
    And that cumulatively over the course of a year, this 
presents the possibility that up to $40 billion was leaving the 
country annually because of corruption. Do you have a sense of 
what percentage of that is American taxpayer money?
    Mr. Bowen. That is all Iraq money. That is oil and gas 
money flowing from the development fund for Iraq, not U.S. 
money, and that comes from an audit from the Board of Supreme 
Audit, Iraq's oversight entity, that was related to me by Dr. 
Basit.
    Mr. Cicilline. Thank you. I yield back, Madam Chair.
    Ms. Ros-Lehtinen. Thank you, Mr. Cicilline.
    Another wonderful Iraq vet, Mr. Collins, is recognized.
    Mr. Collins. Thank you, Madam Chair.
    I appreciate it. I think one of the things that I 
appreciate in this discussion on the questions on both sides is 
this is a dialogue. This is one of the things that I think 
needs to happen.
    And I think what's interesting, though, is coming to the 
table and thinking about the correlation between World War II 
and now. I think there's an interesting correlation.
    One, there is no correlation because there were different 
aspects of this. In going into Iraq, as we did, when you're 
fighting a war and trying to rebuild the place at the same time 
is not the best way to go about it and also, and I think one of 
the statements that was made about not taking into account 
local interest in this, and that's something we've got to look 
at.
    The question I have, though, comes, and I think it was--one 
of them was the corps of professionals and you keep mentioning 
USOCO, and we'll get to that in just a second.
    It was interesting to me that there was a breakdown of 75, 
15, and 10, of the money--75 percent DoD, 15 AID, and then 10 
State.
    Even in the past, if you want to use past knowledge, State 
Department involvement usually would be higher, especially in 
these internals.
    Is that something that you see--and I want to do it short 
because I got several things I want to get to--State Department 
role, especially in this issue, if we're there does it seem 
like it needs to be higher?
    Mr. Bowen. Yes, Mr. Collins, it does, and especially given 
the fact that the State Department was given policy authority 
over the entire reconstruction program. So you had the 
authority in one agency, yet you had the contracting capacity 
all in another agency, and as I saw it repeatedly on the ground 
that led to friction that led to failure.
    Mr. Collins. Well, and that's what I want to follow up 
because it's disturbing to me that we're throwing Syria around 
as quickly as we are here and the fact of where we're at and 
there has been clear evidence of a lot of things going on in 
Syria.
    And one of the statements, Mr. Herbst, I believe that you 
made that, you know, our job is to go in, for a paraphrase, is 
to help those who are--and I think we've got a concern here.
    Because the very things that you're talking about, when we 
start looking at Syria or we start, you know, Egypt or anywhere 
else is us being involved in a way militarily that's so 
functionally different in those environments than Iraq and 
Afghanistan.
    My concern goes back to, if USOCO is implemented, what is 
the cost? What is your estimated cost to set up USOCO?
    Mr. Bowen. $25 million per year.
    Mr. Collins. And who would it report to? I've looked at 
your appendix and I've looked at the draft bill. Is it a stand-
alone new agency?
    Mr. Bowen. Yes.
    Mr. Collins. Where's the direct reporting?
    Mr. Bowen. It reports to the Secretary of State and the 
Secretary of Defense and also to the National Security Advisor 
for Policy.
    Mr. Collins. Okay. That right there I see is an issue right 
there. You have three bosses.
    Mr. Bowen. I actually report to the Secretary of State and 
Secretary of Defense, and because they're civ-mil--these 
operations--it makes sense. These are unique operations, a 
creature of the modern era and a----
    Mr. Collins. But also a direct appointment by the 
President, correct?
    Mr. Bowen. That's right.
    Mr. Collins. That's what I read in your draft----
    Mr. Bowen. That's right.
    Mr. Collins. So----
    Mr. Bowen. With Senate confirmation.
    Mr. Collins. Okay. So it would be, as you made note over 
the FEMA issue, we'd fire that person. The President could fire 
that person----
    Mr. Bowen. That's right.
    Mr. Collins [continuing]. That we look at. As we look 
forward here, one of the last things that you stated in one of 
your lessons learned was plan in advance, plan comprehensively 
in an integrated fashion, have backup plans ready to go.
    Mr. Bowen. Yes.
    Mr. Collins. Okay. One of the issues--and I don't want to 
go back too far here, but is that in World War II--because it's 
been referenced before, if all the history that you would read 
there is that the first couple years we were focused on winning 
the war. And then there came the transition as we came to the 
reconstruction end.
    What I found troubling in Iraq was that it seems to be all 
of a sudden we're there--oh, my God, what do we do, and then 
how do we do this, and they were sent in to reconstruct.
    Now, we're not going to discuss the actual reasons why. But 
that is a concern for me. Are you looking at USOCO being an 
agency that is the front end to say--let's just use an example 
wherever we may go into X state--for whatever reason we decide 
that firm military involvement needs to be there on a large 
scale, would you be trying to do, again, to repeat the problems 
of Iraq where you go in before the fighting is over?
    Or are we looking at something that where there's--let's 
finish it, let's secure it and then begin our rebuilding 
process?
    Mr. Bowen. It would be the latter. I mean, a key lesson 
from Iraq is to ensure sufficient security exists before relief 
and reconstruction activity pursues in earnest.
    But the ultimate goal of USOCO with regard to planning, Mr. 
Collins, is to provide national command authorities with 
options; in other words, a range of choices with regard to the 
nature of the aid that you might provide to country X, so that 
you're not limited by circumstances.
    In Iraq, we planned to liberate and leave. We were going to 
be gone by September. But within 6 weeks of arriving in the 
country we shifted to occupy and rebuild with no structure, 
with no system in place to sustain such an operation.
    Mr. Collins. And I appreciate your work and you have done 
yeoman's work here on both, and I appreciate that.
    I think the concern that I have looking forward here is 
implementation of USOCO, implementation of this in a--what 
we'll call a different environment which Iraq and Afghanistan 
stand alone. And then you've got the smaller areas on how are 
we fitting in and how will that fit in long-term.
    I think these are Madam Chair, I think these are things 
that we need to discuss, especially in the Middle East as we go 
forward, because that has been the hot spot right now in which 
we have to deal with.
    But it also concerns me deeply that we're discussing--and 
we throw numbers around here--we're discussing taxpayer 
dollars. These are dollars that men and women do not understand 
when we send overseas and we don't have a clear, defined role.
    I think we've had a long discussion of where we've 
disconnected what foreign aid should be and what it should be 
about as to what we have seen recently and I think that has 
contributed to the distrust that Americans feel.
    And we have got to restore that trust and this report helps 
in that regard. But I think we've got to continue to follow up. 
Madam Chair, I yield back.
    Ms. Ros-Lehtinen. Very good. Excellent points. And we have 
been joined by the ranking member of the full committee, Mr. 
Engel. We're so thrilled to have you. How are we doing so far? 
Doing all right? Okay.
    Ms. Frankel of Florida is recognized.
    Ms. Frankel. Thank you, Madam Chair. I know----
    Ms. Ros-Lehtinen. Thank you to your son for his service.
    Ms. Frankel. Oh, and thank you, too, for your family and to 
our members who have served.
    So I have another family confession, which is my son also 
served in USAID. So this does not make me an expert, either in 
the military or in the State Department, okay. I want to say 
that.
    But I've tried to have many discussions with my son about 
this. And incidentally, he now runs a wine bar. He owns a wine 
bar. So you can see he's changed his direction.
    But here's what I want to say. First of all, you know, when 
I read this memo from our chairlady--thank you for this memo--
one thing that really jumps out at me is that SIGIR estimates 
that DoD managed 75 percent of the reconstruction funds.
    That should give a real red alert that the DoD should not 
be managing reconstruction. And, in fact, I mean, I am very, 
very proud of the military. I know you mentioned how they are 
professional, they're trained. But I question whether or not 
their training is in development.
    I know--my son trained to be an artillery officer and--
which he was. And I think that's a very different job than 
training to do development. So I think that one of the mistakes 
we made is having the Defense Department manage reconstruction.
    Number two, you talked about USAID, and maybe what I would 
just respectfully suggest is that instead of a new bureaucracy, 
which is called the USOCO, I think one of the failings of 
government is that every time an agency doesn't seem to be 
doing well, instead of looking to see what the real problem is 
we decide to create a new problem.
    Maybe I just want to respectfully suggest--and I'd like to 
hear your comments--maybe USAID is not funded. Maybe USAID does 
not have the authority it needs and maybe if USAID was in 
charge of reconstruction, rather than the military, maybe we'd 
have a different outcome.
    Now, with that said, I'm not sure that either USAID fully 
funded or professionalized to the degree that we would like it 
to be, that our reconstruction efforts were worthwhile either 
in Iraq or Afghanistan. But we can save that for another day.
    Mr. Herbst. Thank you. You raise a valid question, whether 
or not we need a new bureaucracy or we simply use the 
bureaucracies we have.
    My opinion is that the USAID that existed 40 years ago, the 
USAID that was engaged in Vietnam, would have been able to do 
the reconstruction operation in Iraq or Afghanistan much better 
than we have managed to do it ourselves.
    Conceivably, you could recreate USAID. You would have to 
infuse it with substantial resources. It's an agency based 
almost entirely on contractors. You have to hire many, many 
more professionals.
    You'd also have to institute a rather drastic cultural 
change. The assistance community in the United States and 
around the world believes very much in assistance for 
assistance's sake, as opposed to assistance in direct support 
of American national interests.
    And there are wonderful professionals at USAID but most of 
them believe that. That is not the type of culture that would 
do a stability operation correctly.
    My sense is that given how USAID functions today--and it 
does a wonderful job in what it does--you probably would be 
faster, more efficient by creating a USOCO than trying to redo 
it with--in USAID.
    Ms. Frankel. Did you want to----
    Mr. Bowen. Yes. I concur with Ambassador Herbst. The 
reality is USAID today functions chiefly through contracting 
out its work, about 80 percent. And so to absorb it within one 
agency I think has already been attempted at State by--through 
Ambassador Herbst's office, the Coordinator for Reconstruction 
and Stabilization.
    Ultimately, placing it within any one agency--State, DoD, 
USAID--will imbue the operation with that particular 
bureaucracy's biases.
    And by providing it independence, pulling it out, you're 
able to develop a new culture, a civ-mil culture, that ensures, 
Ms. Frankel, I think your key point, that a civilian leads the 
reconstruction mission.
    You led with that, and I totally concur with it. And part 
of the motivation behind the creation of USOCO would be to 
ensure a civilian lead for our stabilization and reconstruction 
operations rather than at each appropriation, at each 
supplemental, having this bidding war almost to decide who gets 
what share of the rebuilding money as occurred so often in the 
course of the Iraq rebuilding venture.
    Ms. Frankel. Thank you very much. Thank you, Madam Chair.
    Ms. Ros-Lehtinen. Thank you, Ms. Frankel.
    Mr. DeSantis, another Florida colleague, and thank you for 
your service in Iraq.
    Mr. DeSantis. Thank you, Madam Chairwoman. Thanks to the 
witnesses. I really appreciate this. I appreciate the report.
    The report obviously talks about that initial decision to 
fire deBa'athification, fire the security forces. General 
Petraeus, I think, was correctly critical of that.
    And I'm just curious, was it just assumed that those folks 
would not have wanted to participate in a new Iraqi Government 
or was there actually evidence that led us to pursue 
deBa'athification?
    Mr. Bowen. I think it was influenced by the Iraqi 
leadership in charge and the Shia leadership that were pushing 
the removal of former Sunnis within the government at a level 
deeper than had initially been planned in pre-war plans.
    And that led to, essentially, as has been described by a 
number of interviewees, of--to a firing of the government and 
the capacity was difficult to fill and took years of training 
and governance assistance.
    Mr. DeSantis. Appreciate that. In terms of the report, it 
talks about the rule of law efforts that were undertaken, and I 
remember when I was there, I mean, there was a court, I 
remember built an Iraq. We'd send detainees there, what not.
    But was there any measurable success in the time and 
resources that we put into the rule of law while we were there? 
I know you said it's deteriorated recently.
    But from the time we started--I don't know when--I know it 
was going on in '07 and '08. Was that just a failure?
    Mr. Bowen. No. I think the interview with Chief Justice 
Medhat, who was also the chair of the Higher Judicial Council 
in Iraq, indicated that he was satisfied with the support on a 
number of rule of law projects, particularly the Major Crimes 
Task Force and the Judicial Security Support.
    Forty-four judges were killed in Iraq over the last 10 
years and there was much intimidation of the judiciary by 
terroristic elements, which prevented the effective rule of 
law. Over time, that security improved and with its improvement 
came an overall improvement to the rule of law system.
    Mr. DeSantis. In terms of the corruption, you know, 
obviously, I think in some of the mismanagement of funds, there 
was some serious examples of waste of taxpayer money.
    But is it the case that, you know, sometimes this 
corruption is embedded into the cultures; that is, are there 
not limits to what even a well-administered stabilization 
operation can achieve in terms of rooting out corruption?
    And if that's the case, specifically with respect to Iraq, 
I mean, do you think that that is just part of kind of what we 
found when we got there?
    Mr. Bowen. There was a culture of corruption in Iraq and to 
some extent it affects the region. Saddam certainly managed a 
formalized corrupt system of patronage.
    But our efforts to try and alter that didn't really alter 
the culture as we've seen, as our reporting demonstrates, and 
as the Iraqis have told me. That culture is an almost 
institutionalized element within the system now and billions, 
tens of billions are being lost to money laundering.
    It's upon them. It's their duty, it's their system, it's 
their sovereignty now to address it and they are beginning to 
address it. But too much has been lost over the last 10 years.
    Mr. DeSantis. And then, finally, in terms of the CERP 
project, you know, I remember that was being done when I was 
there and it just seemed to me, like, there were some benefits, 
but this is just me on a very low level seeing some of this.
    And I didn't get a chance to read, you know, kind of how 
the report appraised that. But from standing here today, do you 
think that that was an effective use of dollars, given the 
circumstances that these commanders were facing at the time?
    Mr. Bowen. Yes, Mr. DeSantis. Our CERP study--our special 
report on CERP--demonstrated significant reporting from 
battalion commanders about successful CERP projects when they 
were managed at a limited level, under $100,000.
    That was the initial plan to--that they should be $25,000 
to 50,000. And tens of thousands of projects at that level were 
accomplished I think to good effect, especially those local 
grants, you remember, that helped local businesses accomplish 
small projects.
    However, when they became $1 million, $5 million, $10 
million projects, and then they extended beyond the life of the 
deployed elements, then we lost oversight and then waste and 
fraud occurred.
    Mr. DeSantis. Thank you. And then, just finally, Mr. 
Herbst, you had mentioned about us not being prepared to do 
some of these operations and so you would not advise us to get 
involved in a nation-building/stabilization type enterprise in 
that region right now?
    Mr. Herbst. I think we should be very careful before we 
make any decisions to go in at the present time.
    Mr. DeSantis. Thank you. I appreciate the witnesses. I 
enjoyed it. Thanks, Madam Chairwoman.
    Ms. Ros-Lehtinen. Thanks, Mr. DeSantis.
    Now we will recognize Mr. Vargas of California.
    Mr. Vargas. Thank you very much, Madam Chair, and I think 
I've figured out the button here finally. So thank you very 
much.
    Ms. Ros-Lehtinen. Only supposed to learn that in your 
second year of service, Juan.
    Mr. Vargas. It usually takes me about two or three, so 
thank you, Madam Chair.
    First of all, I appreciate very much the testimony that 
you've given here today and the information you provided. You 
know, I think for most Americans, when you think of rebuilding 
you do think of the Marshall Plan. I certainly do. And I think 
of it as a success.
    One of the things that you bring out in the report, 
interestingly, is the second point for your seven final lessons 
learned and that was that you begin rebuilding only after 
establishing sufficient security and focus first on small 
programs and projects.
    You know, the Marshall Plan began--I don't know, you may 
recall--it didn't begin right after the war ended. In fact, the 
Marshall Plan didn't begin until 2 years after the war ended 
and it was because we had that fear, of course, of the spread 
of Soviet communism.
    So that's when President Truman said we're going to have 
this plan. It was somewhat controversial.
    I went back and looked at the numbers--I thought they were 
going to be important--because I do recall the numbers being 
gigantic. And it turns out that we spent about $13 billion when 
we had a GDP then of $258 billion for the United States. So it 
was a rather large amount of money.
    There was some controversy with it. But at the same time, 
people generally understood and the American people got behind 
it saying, yes, those are our allies. They're enemies now but 
they're going to be allies long term.
    So, I mean, I appreciate the timing but I think the second 
part is important. That is, that Europe was going to be 
friendly. It doesn't seem to be necessarily the case with, you 
know, Iraq and Afghanistan. Could you comment a little bit 
about that?
    Because I think that's one of the things I think that have 
the American people at some unease because they don't seem 
like--it doesn't seem--you know, every dollar we give to Israel 
we think that's fantastic because they're friends--they're 
going to be friends forever--we're protecting them--you know, 
we're on the same wavelength on everything. Every dollar you 
spend on Iraq or Afghanistan, it doesn't feel right.
    Mr. Bowen. Yes, Mr. Vargas. Two points. One, on the 
Marshall Plan, you're right. We spent 2 years planning for it 
and thus the element of planning to a successful stabilization, 
reconstruction and rebuilding program is proven through the 
success of the Marshall Plan.
    Also, curious, interestingly, the Marshall Plan's 
operational entity, the ECA, reported to two Cabinet 
secretaries. So there is precedent for that as we've described 
for USOCO.
    With regard to receptivity of the local populace, there is 
a lesson from Iraq on that. In fact, there were two rebuilding 
programs in effect in Iraq--the one in Kurdistan, the northern 
three provinces, and then the one in the southern 15.
    Virtually all the projects in Kurdistan where we were 
welcomed, where we were well received, where we did have 
substantial support, were successful. Most of the projects in 
the south were not.
    I think that's reflective of your core point that ensuring 
stability, local stability, local buy-in, local consultation, 
local engagement, are key to successful programs and projects.
    Mr. Vargas. How about you, Ambassador?
    Mr. Herbst. There's no question that our interventions in 
Germany and Japan were successful, even before the Marshall 
Plan and that's because, as we've all mentioned, the Japanese 
and the Germans accepted our presence as legitimate in the wake 
of their defeat.
    In Iraq, that was never accepted except among the Kurds, 
because the Kurds had had a very bad time under Saddam 
Hussein's regime and also the Kurds looked to us as natural 
friends.
    The Shia were also repressed under Saddam but they did not 
necessarily see us as friends. And so our intervention in Iraq 
was always going to be much more difficult in the post-military 
phase because we were not fully accepted.
    Mr. Vargas. And I think that's the unease, I think, that 
the American people feel. I mean, I do think that there is a 
real unease that we have as Americans that we're spending so 
much money there and that in a few years when we leave they're 
not going to be our friends.
    I mean, they're going to see the world very differently 
than we do and our allies in the region are going to be their 
enemies. In other words, they're not going to line up on the 
same side.
    Mr. Herbst. I think that's the reason why we need to be 
cautious as we decide to engage in these countries.
    Mr. Vargas. Any other comment on that?
    Mr. Bowen. USOCO would ensure caution because it would 
offer options. We would not be driven by circumstances as was 
the case in Iraq when we shifted from a plan to leave in 2003 
to one that ended up requiring us to stay for 10 years.
    And USOCO would also provide accountability and 
transparency that it would--that I think would assuage those 
just concerns that the American people have about their dollars 
being wasted in these operations.
    Mr. Vargas. Thank you. Thank you, Madam Chair.
    Ms. Ros-Lehtinen. Thank you, Mr. Vargas.
    And we thank our excellent witnesses for wonderful 
testimony. And to conclude our subcommittee, I will just read 
into the record the seven final lessons from Iraq based on the 
final report from the Inspector General.
    Number one, create an integrated civilian military office 
to plan, execute and be accountable for contingency rebuilding 
activities during stabilization and reconstruction operations.
    Two, begin rebuilding only after establishing sufficient 
security and focus first on small programs and projects.
    Three, ensure full host country engagement in program and 
project selection, securing commitments to share costs, 
possibly through loans, and agreements to sustain completed 
projects after their transfer.
    Four, establish uniform contracting personnel and 
information management systems that all SRO participants use.
    Five, require robust oversight of SRO activities from the 
operation's inception.
    Six, preserve and refine programs developed in Iraq, like 
the Commander's Emergency Response Program and the Provincial 
Reconstruction Team Program, that produce success when used 
judiciously.
    And lastly, seven, plan in advance, plan comprehensively 
and in an integrated fashion and have backup plans ready to go.
    Excellent, gentlemen. We appreciate your testimony. We look 
forward to working with you in the months ahead. And with that, 
the subcommittee is adjourned. Thank you.
    Mr. Bowen. Thank you, Madam Chairman.
    [Whereupon, at 11:45 a.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



               <F-dash>\\<careof><Rx><brit-pound>t<box>s\
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


<F-dash>\<Copyright><pound><Rx><Rx><pound><script-l><script-l><variable>
                      stat<box><acctof><box><Rx>t\
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
